U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Wilie Lee Lewis v. United States of American,
S.Ct. No. 20-7617

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 27,
2021, and placed on the docket on March 31, 2021. The government’s response is due on April
30, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 31, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7617
LEWIS, WILIE LEE
USA

DANIEL FRANCIS DALY
DANIEL F. DALY, ESQ.
PO BOX 357100
GAINESVILLE, FL 3235-7100

